<html>
<title> - LEGISLATIVE HEARING ON H.R. 5413 AND H.R. 6418</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


             LEGISLATIVE HEARING ON H.R. 5413 AND H.R. 6418

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH


                                OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      THURSDAY, SEPTEMBER 13, 2018

                               __________

                           Serial No. 115-77

                               __________

       Printed for the use of the Committee on Veterans' Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
                     
                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-831 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe8e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a>                              
                     
                     
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   CONOR LAMB, Pennsylvania
JODEY ARRINGTON, Texas               ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
BRIAN MAST, Florida
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                         SUBCOMMITTEE ON HEALTH

                      NEAL DUNN, Florida, Chairman

GUS BILIRAKIS, Florida               JULIA BROWNLEY, California, 
BILL FLORES, Texas                       Ranking Member
AMATA RADEWAGEN, American Samoa      MARK TAKANO, California
CLAY HIGGINS, Louisiana              ANN MCLANE KUSTER, New Hampshire
JENNIFER GONZALEZ-COLON, Puerto      BETO O'ROURKE, Texas
    Rico                             LUIS CORREA, California
BRIAN MAST, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                      Thursday, September 13, 2018

                                                                   Page

LEGISLATIVE HEARING ON H.R. 5413 AND H.R. 6418...................     1

                           OPENING STATEMENTS

Honorable Neal Dunn, Chairman....................................     1
Honorable Julia Brownley, Ranking Member.........................     2

                               WITNESSES

The Honorable Brian Mast, U.S. House of Representatives, 18th 
  District; Florida..............................................     3
    Prepared Statement...........................................    17
The Honorable Elizabeth Esty, U.S. House of Representatives, 5th 
  District; Connecticut..........................................     4
    Prepared Statement...........................................    17
Melanie Brunson, Director of Government Relations, Blinded 
  Veterans Association...........................................     6
    Prepared Statement...........................................    18
Matthew Shuman, Director, National Legislative Division, The 
  American Legion................................................     7
    Prepared Statement...........................................    21
Jose Ramos, Legislative Director, Wounded Warrior Project........     8
    Prepared Statement...........................................    22

 
             LEGISLATIVE HEARING ON H.R. 5413 AND H.R. 6418

                              ----------                              


                      Thursday, September 13, 2018

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                     Subcommittee on Health
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 9:59 a.m., in 
Room 334, Cannon House Office Building, Hon. Neal P. Dunn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Dunn, Mast, Brownley, Takano, 
Kuster, and Esty.

            OPENING STATEMENT OF NEAL DUNN, CHAIRMAN

    Mr. Dunn. So it is the habit of this Committee to run on a 
punctual time. I am glad to see everybody here that we need, 
and the Subcommittee will now come to order. Thank you all for 
joining us today, and this morning, we will be discussing two 
bills that have been referred to the Subcommittee on Health in 
response to my Committee Members from both sides of the aisle. 
I am grateful to Representative Brian Mast and Representative 
Elizabeth Esty for working to ensure the Department of Veterans 
Affairs is best able to provide the high-quality care and 
services that our Nation's veterans have earned and certainly 
deserve.
    The bills that we will be discussing this morning seek to 
improve a veteran's ability to identify and utilize services 
available to them from the VA and from Congress. Representative 
Mast's bill, H.R. 5413, the Improving Veterans Access to 
Congressional Services Act of 2018, would make it easier for 
veterans to interact with their Representatives by requiring VA 
to prescribe regulations allowing Members of Congress to use 
space within a VA facility to meet with veteran constituents.
    This bill will build on a successful agreement in place 
since last year with a number of Members, including 
Representative Mast, and the West Palm Beach VA Medical Center. 
It would make it easier for the Members in other districts to 
enter into similar agreements with their local VA facilities 
and, most importantly, benefit veterans by allowing for 
increased communication and on-the-ground resolution with 
constituent casework issues involving the VA arise.
    Representative Esty's bill, H.R. 6418, the VA Website 
Accessibility Act of 2018, would require VA to examine all Web 
sites, apps, attachments, and electronic forms to determine 
which are inaccessible to veterans with disabilities and 
develop a plan to make each of them accessible.
    The Blinded Veterans Association is going to testify today 
that visually impaired veterans, in particular, often face 
barriers to accessing information from the VA because they are 
directed to forms or pages that are incompatible--excuse me--
with screen readers, in violation of Federal law, which 
requires agencies to make electronic information accessible to 
those with disabilities unless doing so would impose an undue 
burden.
    This bill would require VA to take systematic action to 
address areas of inaccessibility and eliminate barriers to 
needed VA information for veterans with visual impairments and 
other disabilities.
    Once again, I thank our two bill sponsors for introducing 
these proposals and for their attendance here today. I also 
thank the veteran service organizations who will be testifying 
and submitting statements for the record for their willingness 
to lend their opinions and expertise to this discussion this 
morning.
    I now yield to Ranking Member Brownley for any opening 
statement that she may have.

      OPENING STATEMENT OF JULIA BROWNLEY, RANKING MEMBER

    Ms. Brownley. Well, thank you, Dr. Dunn, and thank you for 
holding this legislative hearing. And I too want to thank our 
colleagues on the Committee, Congressman Mast and Congresswoman 
Esty, for introducing these bills. It is always important to 
hear the concerns of various stakeholders as we draft and pass 
legislation on ways, we can improve these bills. For that 
reason, I also appreciate each of the witnesses' ability to 
organize and submit remarks in such a short timeframe.
    On Mr. Mast's bill specifically, which focuses on 
congressional offices operating in VA facilities, I am open to 
the idea if there is space available and we are not taking away 
from patient care. In my district, for example, our local 
veterans service officer in our county, Ventura County, is 
interested in opening a field office in the Oxnard VA, which 
will be leasing a larger clinic in the coming years. I think 
these types of partnerships can help veterans, again, as long 
as we are not taking space away that could be caring for 
veterans.
    I would have liked to ask the VA about this issue today, 
but unfortunately the VA wasn't given adequate time to prepare 
their views on today's legislation. I believe that today's 
hearing would have benefited had we been able to learn the 
agency's position on these bills.
    With that said, I look forward to discussing the positions 
of our VSOs on these pieces of legislation and am hopeful we 
are able to incorporate those concerns into amendments to be 
offered in tomorrow's proceeding if we have one, which sounds 
like that might get postponed. So thank you, and I yield back.
    Mr. Dunn. Thank you very much, Representative Brownley.
    I will now welcome our first panel, who will be our authors 
testifying from the dais. Speaking on their bills today are 
Congressman Brian Mast from the great State of Florida and 
Congresswoman Elizabeth Esty from Connecticut.
    Mr. Mast, you are now recognized for 5 minutes.

             STATEMENT OF THE HONORABLE BRIAN MAST

    Mr. Mast. Thank you, Chairman Dunn, Ranking Member 
Brownley, I appreciate it, the opportunity to testify here 
before the House Veterans Subcommittee on Health on this 
legislation. I introduced it back in March of 2018, H.R. 5413, 
the Improving Veterans Access to Congressional Services Act. 
Now my commitment, as I believe every commitment--every Member 
of this Committee has the same commitment--is to help the end 
user of the VA be served every single day with dignity and 
honor that they have earned, the best possible experience every 
day going through the VA.
    Now I firmly believe that in order to understand an issue 
best, you have to be present to see that issue day in and day 
out. I also believe that our veterans have to know that we care 
about things before they really care what it is that we know 
about the issues that we have to deal with, and it is why I 
still do, and I always will, get every bit of my health care 
from the Department of Veterans Affairs personally.
    It is why, as an incredible pilot program, we opened the 
first ever congressional office inside of a VA hospital, the 
West Palm Beach VA Medical Center, last year. This office, it 
is probably smaller than the table that our panelists sit at, 
but its efforts have been far-reaching and tremendous. Having 
this office, I have experienced the good and the bad firsthand, 
but I also get the opportunity to see what is working well and 
what is not working, hear it from our veterans firsthand on a 
weekly basis.
    By opening up this office, my staff and I get to see week 
in, week out, the daily operations of our VA facility. Walking 
in the door every single week, walking past the same locations 
every single week, past the same offices every single week, we 
interact with our veterans daily, receive positive and negative 
feedback on the operations of the facility in real-time.
    When common threads or issues surface, I address it 
immediately with the hospital administration, which they have 
appreciated the fact that many veterans share their experiences 
with me, knowing that I am a veteran, knowing that I am a 
Member of Congress, knowing that they are heard at the highest 
possible level, and they appreciate having that information 
shared with them as the hospital administrators.
    Additionally, when veterans have negative personal 
experiences at our VA facility, they know that they get to be 
heard by their Member of Congress immediately. They can see 
their Representative on their turf, where they are comfortable, 
where they believe that they are in a safe location for them. 
And they know that their Representatives and their Members of 
Congress and their government cares. They cry in that office. 
They get a hug from their Representative in that office. They 
know that they are heard.
    To provide a bit of background and context on this office, 
we opened it for the first time on December 18, 2017. I share 
this office with three other Members of the Florida delegation: 
Representatives Alcee Hastings, Lois Frankel, and Ted Deutch. 
We all hold office hours there now. I try to personally be in 
that office on Mondays before I fly up here to Washington so 
that I can be there personally with those veterans and get that 
one-on-one time with them, to hear about whatever it is they 
want to speak about.
    In 9 short months, this office has held over 400 meetings 
with our veterans and their families and their caregivers, and 
opened up nearly 200 additional pieces of casework. The office 
has allowed me to expedite the assistance that I provide to our 
veterans and improve their overall quality of service that we 
deliver to each and every one of them. I truly believe that 
every Member of Congress should at least have the opportunity 
to open an office in their local VA. The more present that 
Members of Congress are, the better quality of service that our 
veterans can receive.
    Now, since our office opened in the VA, I have been 
approached by countless other Members of Congress looking to 
replicate these efforts. It took me 8 months of administrative 
processing from the date that previous Secretary Shulkin gave 
me the commitment that we could open this office until it 
actually opened. I was happy to be the first through this door, 
and the lesson that we learned about the process of opening 
this congressional office in the VA should be simplified and 
institutionalized. That is why I introduced the Improving 
Veterans Access to Congressional Services Act, to pave the way 
for our colleagues to open up their own VA office, their own 
congressional offices inside VA medical centers, and together, 
we do what we do. We work to improve our veterans' access to 
us, to health care, to every service that it is that they need 
across the country.
    This legislation that requires the Secretary of the 
Veterans Affairs to permit the use of VA facilities by Members 
of Congress for the purpose of meeting with their veteran 
constituents. Additionally, it requires the Secretary to 
establish a standard operating procedure to facilitate and 
expedite these requests with inside the VA's facility.
    Chairman Dunn, Ranking Member Brownley, and Members of the 
Committee, I appreciate the opportunity to testify on this 
legislation. Thank you.

    [The prepared statement of Brian Mast appears in the 
Appendix]
    Mr. Dunn. Thank you, Mr. Mast, for that passionate 
presentation.
    Ms. Esty, you are now recognized for 5 minutes.

           STATEMENT OF THE HONORABLE ELIZABETH ESTY

    Ms. Esty. Chairman Dunn, Ranking Member Brownley, and my 
fellow Members of the House Veterans' Affairs Committee. I want 
to thank you for giving me the opportunity to testify today 
about my bill, H.R. 6418, the VA Website Accessibility Act of 
2018.
    As the Ranking Member of the House Committee on Veterans' 
Affairs Disability Assistance and Memorial Affairs 
Subcommittee, I know all too well how many veterans live with 
the wounds of war. And according to the Blinded Veterans 
Association--again, I want to thank Ms. Brunson for being with 
us here today--there are an estimated over 130,000 legally 
blind veterans in the United States and another 1.5 million 
veterans with low vision. These veterans require and deserve 
the same services and support as other veterans with 
disabilities. The needs and deservingness of the disabled 
veteran is reflected in law. Section 508 requires the VA Web 
site to be accessible to persons with disabilities.
    However, blind veterans currently face challenges accessing 
the VA Web sites and mobile applications which are often the 
gateway to VA services and benefits. Navigating the VA's often 
complicated bureaucracy for the detailed information necessary 
to apply for VA benefits should not be doubly difficult for our 
visually impaired veterans. While assistance from a friend or a 
loved one can be invaluable, not every blind veteran has 
somebody available at all times to help them with the services 
and access they need for this critical information, and, 
frankly, they shouldn't have to rely on someone else to get the 
services they need.
    Reader apps and other devices provide helpful support, but 
I have heard from blind veterans that--they say these apps are 
not always supported and don't always work. Perhaps one of the 
most alarming instances of inadequate access to VA mobile apps 
was identified earlier this year when the VA updated the 
veteran's crisis line mobile app but failed to verify that the 
update was section 508 compliant. Visually impaired veterans 
were unable to access this vitally important mobile app: the 
crisis line. And when we have a crisis of military suicide and 
veteran suicide in this country, it is completely unacceptable 
that that wasn't checked. Thankfully, quick action by the 
Blinded Veterans Association, the staff of this Committee, and 
calls to VA corrected that unacceptable error.
    And I know that everyone on this Committee and in this room 
shares the same goal of providing the best for all of our 
veterans, but we must not let this happen. That is why I 
introduced this bill, the VA Website Accessibility Act, which 
will require a study to determine the accessibility of the VA 
Web site, and the mobile apps, to ensure that they really truly 
function for all veterans with disabilities. It is very 
important that this Congress and the VA continue to ensure that 
all of our veterans, including those with visual impairments, 
have full access.
    Now, we are all aware, Federal law already requires this, 
but in fact, we know it is not working. Our commitment is not 
to have good intentions, is not to have laws in place but 
actually make sure they are implemented in a way that functions 
for the people we are honored to serve. So, again, I know 
everyone on this Committee shares that commitment, and we owe 
it to all our veterans, including the blind and visually 
impaired, to ensure this access is real and available when they 
need it. I want to thank the VSOs here today for their 
suggestions. We have already talked some, and I know they are 
going to have some suggestions for us how to improve this 
legislation.
    I want to thank all of you for joining us here today. I 
want to thank the Committee. Again, I apologize, I have another 
Committee going, as many of us do, but again, thank you for 
joining us. Thank you to the Chairman and Ranking Member and my 
fellow colleagues on the Committee, and I appreciate your 
assistance in making sure that the VA works for all veterans. 
Again, my thanks and I yield back.

    [The prepared statement of Elizabeth Esty appears in the 
Appendix]
    Mr. Dunn. Thank you, Ms. Esty, and thank you for your 
diligent work on this bill.
    Once again, I am grateful for both of you being here, and 
for sponsoring bills on our agenda this morning.
    I will now welcome our second panel to the witness table. 
And we have joining us:
    Ms. Melanie Brunson, Director of the Government Relations 
for the Blinded Veterans Association. Thank you, ma'am.
    Mr. Matthew Shuman, Director of the National Legislative 
Division of The American Legion. Sir.
    And Jose Ramos, Legislative Director for the Wounded 
Warrior Project.
    We will begin with Ms. Brunson. You are now recognized for 
5 minutes.

                  STATEMENT OF MELANIE BRUNSON

    Ms. Brunson. Thank you, Chairman Dunn. On behalf of the 
national officers and Members of the Blinded Veterans 
Association, I want to thank you, Ranking Member Brownley, and 
all the Members of the Health Subcommittee for the opportunity 
to participate in this hearing. Both bills under consideration 
today offer thoughtful means of addressing significant needs of 
our Nation's veterans.
    Because of the time constraints this morning, I would like 
to focus my comments on H.R. 6418. We thank Representative Esty 
for introducing this bill because it provides some practical 
steps that address some of the Blinded Veterans Association's 
most persistent concerns about the VA's compliance with section 
508 accessibility standards. Section 508 compliance is an issue 
that people throughout the VA generally agree is important, but 
at the same time, the issue never seems to rise to the level 
where it gets the attention of VA's leadership for any length 
of time.
    Having the VA secretary compile a report on the current 
state of this compliance could help change that scenario. And 
with the recent rollout of the electronic medical record 
collaboration with Cerner Corporation, along with the focus on 
the IT modernization across the VA, the Blinded Veterans 
Association believes the time for a new scenario is now. For 
this reason, we support H.R. 6418.
    Having said that, though, we would like to see some 
additional measures included that we think would strengthen the 
bill's effectiveness. We offer these for your consideration.
    First, in addition to directing the Secretary to develop a 
plan that addresses current accessibility shortfalls, we 
believe the plan should also include steps that will be taken 
to ensure that these shortfalls are not repeated in the future. 
Because all too often the VA does not learn from its 
accessibility-related mistakes.
    Second, we suggest that the scope of the evaluation and the 
report called for in this bill should be broadened to include 
other items besides Web sites that are covered by section 508, 
such as the inaccessible kiosks that have been deployed at VA 
facilities around the country, telehealth tools that are meant 
to be used in the homes of veterans, but cannot be used by 
veterans who have visual impairments, and a variety of software 
and hardware for VA employees to use but is incompatible with 
the assistive technology used by VA employees who have 
disabilities.
    Including these items in the Secretary's evaluation and 
report would give both him and Members of Congress a more 
accurate snapshot of the current state of VA's compliance with 
section 508 accessibility standards. It would also give the 
Secretary more compelling reasons to develop a plan that is 
comprehensive in nature and provides long-term solutions, 
rather than simply short-term fixes for present concerns.
    Finally, once this report is completed, we would like to 
see the Members of Congress commit to holding the VA Secretary 
and his department accountable for taking the actions set forth 
in the Report. The Secretary's perspective on how to bring his 
Department into compliance is certainly important, but it is 
just as important that this bill provide for congressional 
oversight of the Department's response to the legislation, 
especially the content and implementation of the Secretary's 
plan of action.
    Knowing there will be such follow-through by Congress, we 
believe, could impact the quality of the response from the VA 
and the subsequent report of the Secretary. Thank you for your 
consideration of these suggestions. I am now happy to answer 
any questions you may have.

    [The prepared statement of Melanie Brunson appears in the 
Appendix]
    Mr. Dunn. We will take the questions at the end, if we may, 
and pass on to Mr. Shuman. You are now recognized for 5 
minutes.

                  STATEMENT OF MATTHEW SHUMAN

    Mr. Shuman. Thank you, sir.
    The American Legion is adamant in assuring both VA and our 
representative government is accessible to all veterans. The 
Secretary of the Department of Veterans Affairs has the 
authority to provide office space to Members of Congress. This 
is the same authority that was used to open the office in West 
Palm Beach, but obtaining this authorization was an 
overwhelmingly complicated process. It took Congressman Mast 
more than 1 year to open the office space to be utilized for 
assisting local veteran constituents with obtaining their well-
deserved health care benefits.
    These are incremental steps in the right direction, but 
there is still much work to be done. Chairman Dunn, Ranking 
Member Brownley, Vice Ranking Member Takano, Congressman Mast, 
distinguished Members of the Subcommittee, on behalf of 
National Commander Brett P. Reistad and the nearly 2 million 
members of The American Legion, I thank you for the opportunity 
to testify on H.R. 5413 and H.R. 6418. If signed into law, H.R. 
5413, the Improving Veterans Access to Congressional Services 
Act of 2018, will direct the Secretary of the Department of 
Veterans Affairs to permit Members of Congress to use VA 
facilities to meet with constituents in an attempt to increase 
and improve the access veterans have to their elected 
officials. Following an invitation to testify before this 
Committee, The American Legion engaged the Florida delegation's 
offices who share the space at the West Palm Beach VA Medical 
Center to learn more about the creation and day-to-day 
operations.
    The use of this potentially valuable resource appears to 
vary greatly among the Members of Congress. The American 
Legion, with nearly 100 years of dedicated experience, can 
certainly see the potential value added to a Member of Congress 
having visible office space within a VA facility, but we can 
also see the possible negative consequences.
    As an example, Congressman Mast himself often maintains a 
presence in the VA office, leading to a great success in 
engaging the veteran community, whereas other Members sharing 
the space do not seem to have the same dedication to fulfill 
such a presence. The American Legion is not only concerned that 
VA will be required to provide space to congressional Members 
but that it may limit space available for other necessary 
services.
    Chairman Dunn, in order to support this bill, The American 
Legion calls on this Committee to augment H.R. 5413 to create a 
pilot program with--sorry--with quantifiable criteria that will 
yield empirical data and show the potential efficacy of the 
legislation. This evidence-based approach will help to 
conclusively determine the value to all veterans. The American 
Legion applauds and appreciates the intentions, efforts, and 
leadership of Congressman Mast, particularly as a fellow 
veteran. His efforts, which we can all learn from, highlight 
the desire of a Member of Congress who understands the value of 
first-hand engagement with veteran stakeholders in the VA 
health care system.
    The American Legion, the largest representative of those 
stakeholders, will continue researching and working with this 
Committee, Congressman Mast, and our membership of war-time 
veterans to best serve those who have selflessly raised their 
right hands and taken the oath to protect this great Nation.
    Separately, H.R. 6418 will direct the Secretary of 
Veterans' Affairs to conduct a study regarding accessibility of 
Web sites at the Department of Veterans Affairs for individuals 
with disabilities. An accessible information technology system 
is one that is operated in a variety of ways and does not rely 
only on a single sense or user ability.
    Further, the VA Website Accessibility Act of 2018 requires 
VA to compile a list of noncompliant Web sites and submit a 
plan to this Congress to make sure those Web sites are finally 
compliant. The American Legion is faithful and applauds the 
leadership of Representative Esty for creating legislation 
which, in time, Mr. Chairman, will assist VA in becoming more 
user-friendly to those veterans in need.
    In closing, The American Legion, just as this Committee, 
believes in commonsense, evidence-based solutions. Chairman 
Dunn, Ranking Member Brownley, Vice Ranking Member Takano, 
Representative Kuster, and Congressman Mast, I appreciate the 
opportunity to share with you today the position of The 
American Legion. I look forward to answering any questions you 
may have. Thank you, sir.

    [The prepared statement of Matthew Shuman appears in the 
Appendix]
    Mr. Dunn. Thank you very much, Mr. Shuman.
    Mr. Ramos, you are now recognized for 5 minutes.

                    STATEMENT OF JOSE RAMOS

    Mr. Ramos. Chairman Dunn, distinguished Members of the 
Subcommittee, thank you for inviting Wounded Warrior Project to 
testify today. My name is Jose Ramos, and I am a legislative 
director for the Wounded Warrior Project. In 2004, while 
serving in Iraq as a member of a marine sniper team, I was hit 
by a rocket and critically injured. When I returned to the 
United States, Wounded Warrior Project was there to assist me 
and my family as they did with all other ill and injured 
servicemembers.
    Over the last 14 years, I worked closely with the injured 
veteran community, I served on the Dole-Shalala committee, 
stood up the Congressional Inquiries Division for the Office of 
the Secretary of Defense, and served as an ambassador for the 
military program. I am honored to say that I am living proof of 
the positive outcomes Wounded Warrior Project has had on this 
community, and it is a privilege to speak to you today 
regarding the proposed legislation.
    In regard to H.R. 5413, Improving Access to Congressional 
Service Act, Wounded Warrior Project fully supports this 
legislation. Thousands of veterans turn to you and your staff 
with a broad spectrum of complex requests. You act as the 
ombudsman between your veteran constituents and the VA.
    Wounded Warrior Project is engaged with the veteran 
community in a different way. Our organization continues to be 
at the bedside of some of the Nation's most critically injured 
as well as through the delivery of a dozen free direct-service 
programs to warriors and families in need. Wounded Warrior 
Project often finds itself advocating for critically injured 
and their caregivers while communicating with the VA and 
congressional staff.
    We believe creating a one-stop shop for advocacy and 
medical treatment makes sense. It alleviates the need for 
multiple trips to different locations and provides a holistic 
approach to address the needs of the most critically injured. 
Additionally, it would also provide congressional offices and 
their Members the opportunity to interact more often with local 
veterans and caregivers within their communities to better 
understand the difficulties veterans face, as well as observe 
the challenges and successes at their local VMCs.
    It is our hope that these congressional offices are used to 
conduct constituent outreach, to provide pertinent information 
to veteran populations, and above all, to allow Congress to 
learn from the veteran community they physically interact with 
in a common, veteran focal point. Although we support this 
legislation, Wounded Warrior Project would like to caution 
Congress on a few aspects: first, the potential for misusing 
these offices as an inappropriate oversight tool; second, the 
potential for new congressional staff to bypass already 
available resources because they are unaware of the VA process. 
Therefore, Wounded Warrior Project recommends that, one, the VA 
and Congress work together to create clear guidance determining 
what actions are acceptable at the locations; and, two, for the 
VA to develop an introduction to veterans affairs class which 
outlines a clear VA advocacy chain of procedures, which 
requires any individual working at a VAMC-based office to not 
only attend these classes but also agree to properly direct 
veterans who ask for assistance to the appropriate VA entity.
    Lastly, Congress should be extremely sensitive to the 
perception of using veterans for political purpose, and 
therefore, we strongly support the closing of VAMC's 
congressional office during campaign season as outlined in the 
current shared state agreement being utilized at West Palm 
Beach VAMC.
    In regard to H.R. 6418, VA Websites Accessibility Act, 
Wounded Warrior Project supports the intent of this legislation 
but offers additional recommendations. Through the delivery of 
our programs and services, our goal is to increase access to 
community services and empower to achieve goals of living a 
more independent life.
    To empower warriors with physical or cognitive disabilities 
to live a more independent life, they will rely on web-based 
platforms to schedule VA appointments, seek information on 
programs, and communicate with their VA health care provider. 
Prior to passing H.R. 6418, Wounded Warrior Project recommends 
Congress receive a brief from the VA CIO, the Department of 
Justice Civil Rights Division responsible for obtaining 
information on section 508 compliance, and the Federal CIO 
Council Accessibility Committee on the status of ongoing 
efforts being conducted for VA IT systems to ensure they are in 
compliance with section 508.
    Any report produced should also include a strategic plan 
with stated timelines for fixing inaccessible Web sites to make 
them accessible for individuals with disabilities.
    Lastly, Congress should institute annual briefs to continue 
to monitor progress, including the ongoing, electronic health 
record modernization efforts.
    I, on behalf of Wounded Warrior Project, thank the 
Subcommittee and its distinguished Members for the invitation 
to testify on the bills under consideration. I want to thank 
Representative Mast and Representative Esty for their 
leadership, and I stand ready to answer any questions you may 
have. Thank you.

    [The prepared statement of Jose Ramos appears in the 
Appendix]
    Mr. Dunn. Thank you very much, Mr. Ramos.
    I now yield myself 5 minutes for questions.
    Mr. Shuman, you made reference to specific quantifiable 
criteria that will yield empirical data. Can you tell us what 
quantifiable criteria those are?
    Mr. Shuman. Well, thank you for the question, Mr. Chairman. 
That is something that we are more than willing to work with 
this Committee and certainly somebody at the dais who has 
experience on this. We didn't want to create the arbitrary 
information ourselves. I think it would be critical to work 
with subject-matter experts to know exactly what that would 
look like.
    As we have heard Congressman Mast testify, the number of 
cases that he has opened through this office, along with the 
number of engagements, we just want to be able to quantify that 
and see if it truly impacts. But additionally, there are three 
other Members of Congress that utilize the space as well. We 
would like to be able to receive the same data from them as 
well just to truly understand the full scope and use of this 
beyond the physical Member himself being there and learning 
what the staff is doing as well.
    Mr. Dunn. All right, thank you. I certainly understand the 
concerns about space constraints within the VA facility's 
campuses. If space was not a concern at all in any of these 
facilities, would you have any reservations about 5413? And I 
will just go right down the line. Ms. Brunson, first?
    Ms. Brunson. No.
    Mr. Dunn. Thank you.
    Mr. Shuman?
    Mr. Shuman. I think we have other concerns with the bill 
beyond just space, Mr. Chairman, but we would be happy to look 
at that at that time.
    Mr. Dunn. Thank you.
    Mr. Ramos?
    Mr. Ramos. No.
    Mr. Dunn. Okay. Mr. Ramos, you made a comment about misused 
oversight bypassing internal VA advocacy. Have you actually 
witnessed any of that at the West Palm Beach Veterans Center?
    Mr. Ramos. Great question, Mr. Chairman, and the answer is 
we have not witnessed, but what our concern would be is, if you 
have a new congressional staff member working at one of the 
AMCs, that they would be unaware of maybe the services 
available, whether it is a patient advocacy or the local 
service advocacy through the VA. So that is why we recommend 
that some sort of tutorial or class be implemented and that new 
staff or staff working there go through them so that they 
direct the veteran to the appropriate entity first so that they 
are not bypassing them.
    Mr. Dunn. No blowback on this yet, no problems--
    Mr. Ramos. No, sir.
    Mr. Dunn. Ms. Brunson, do you think the office of IT there 
at the VA has the needed authorities and abilities to address 
these noncompliance issues?
    Ms. Brunson. Yes.
    Mr. Dunn. Good.
    Ms. Brunson. The difficulty, of course, is that they 
haven't done so in a comprehensive manner. So what we see 
happening is the same mistakes being repeated over and over 
again. Oftentimes things are rolled out in a hurry, and it 
appears to us that sometimes the request for a determination as 
to whether something is 508-compliant is sort of a process that 
we know we are supposed to go through, but if they say it 
isn't, we implement it anyway because we are in a hurry to get 
it out, and we figure we will fix it later.
    And in the meantime, a certain percentage of the population 
that the Web site is supposed to serve, or the app is supposed 
to be useable by, or the equipment is supposed to be for, 
cannot access it.
    Mr. Dunn. Do you know if there are any representatives from 
the section 508 compliance office embedded in the IT office at 
VA?
    Ms. Brunson. The section 508 office is under the IT office, 
and--
    Mr. Dunn. So, yeah, then the entire 508 section is embedded 
in IT.
    Ms. Brunson. Yes.
    Mr. Dunn. How about that. Well, that concludes my 
questioning.
    Ranking Member Brownley, do you have any questions?
    Ms. Brownley. Just very, very quickly. I first would like 
to thank Ms. Brunson for her advocacy. I shudder to think if 
you weren't on top of this compliant issue, it would be worse 
than it is. So I thank you for that. And I just wanted to ask, 
outside of simply the VA not making this a priority, what other 
barriers do you see with regards to compliance?
    Ms. Brunson. I am not exactly sure what you are looking 
for--
    Ms. Brownley. Well, I think the main reason is that the VA 
just does not make this a priority, and so they are not focused 
on it. So what I am asking is, is there anything else, other 
than that, that is a barrier to the compliance?
    Ms. Brunson. Well, I think that the lack of focus manifests 
itself in a lot of different ways. I have had, in the time that 
I have been meeting with the section 508--well, the IT office 
in particular--the same question, conversation, over and over 
again, about some of the issues that folks have. And every time 
we have the conversation, the response is the same, which is: 
Wow, this is the first time I have heard that.
    And I know that is not true because I have had the same 
conversation with the same individual at a previous meeting.
    For instance, I had a conversation in a meeting with other 
VSOs where we were getting an update on some of the IT 
modernization dealing with the ability to collect information 
for databases about veterans that would help make the 
electronic medical record more comprehensive. And they 
demonstrated a field that had been added to a particular 
database that would enable medical providers to collect 
information about someone's hearing impairment and whether or 
not they needed an interpreter. And they said: This is really a 
great step.
    And so I raised my hand, and I said: Well, that is great, 
but have you also included whether someone is visually impaired 
and might need to have medical information in an alternate 
format?
    And they hadn't thought about that one.
    Ms. Brownley. Thank you.
    And just, Mr. Shuman, I think you said in your comments, in 
your beginning comments, that the fact that Mr. Mast, it took 
him a year to make this partnership and this agreement happen 
in West Palm Beach, and I agree with that. I think that, you 
know, partnerships, really across the board within the VA, is 
always time-consuming and difficult, and somehow, we should be 
able to streamline those. Because I think those, in many cases, 
those partnerships are going to help to better serve veterans.
    So, having said that, I am not sure that there is, you 
know, in the language, in the body of this bill, where there is 
a lot of language here that kind of streamline that process. 
And I think we kind of need--we need to attack that. But, you 
know, having said that, and you said you have got a few more 
concerns other than space, and I think you have articulated 
that. I mean, do you think the way the bill is written at this 
moment, understanding that I think we all agree with the spirit 
and the intent here, do you think the bill, as written, is 
ready to go to the floor to vote by the House?
    Mr. Shuman. Thank you for the question, Congressman. The 
short answer is no. We think there is more information that is 
still needed. I think that the bill in the first place calls 
for an SOP, a standard operating procedure, to be created. And 
it is quite a while, particularly when the Secretary authorized 
it, and it took 8 more months for that to happen is 
interesting. And it should have happened faster in the opinion. 
But at the current form, there need to be some concerns that 
need to be addressed, I believe, before it would move to the 
floor, ma'am, in The American Legion's opinion.
    Ms. Brownley. Thank you.
    And, lastly, Mr. Ramos, you had said space was the only 
issue, but I thought that the Wounded Warrior Project had also 
raised the Hatch Act as a concern around the bill. Is that 
still a concern or?
    Mr. Ramos. Correct, ma'am, it is a concern. I believe it is 
addressed in the shared agreement that exists now, but it is a 
concern that we would have, not only with the Hatch Act, but 
all the other concerns that we have addressed during the oral 
testimony and our written.
    Ms. Brownley. Thank you very much, and I yield back.
    Mr. Dunn. Thank you very much, Representative Brownley.
    Representative Mast, you are recognized for 5 minutes.
    Mr. Mast. I thank you all for speaking on this bill and for 
the concerns that you brought up. This is how we get to good 
legislation, is by having everybody be a part of the 
discussion. And so I appreciate your comments.
    I would like to ask a couple questions, beginning with you, 
Mr. Shuman. Do the VA hospitals have locations for shopping in 
them right now? You have seen one VA, you have seen one VA. But 
do VA hospitals have locations in them for shopping?
    Mr. Shuman. I am not sure, sir.
    Mr. Mast. Do you know if the West Palm Beach VA has a 
location in it for shopping?
    Mr. Shuman. I have never physically been to the West Palm 
Beach VA.
    Mr. Mast. I can tell you that it does. It has quite an 
amount of space in there for shopping for various things from 
blankets to pins to, you name it. Would you rank shopping above 
advocacy?
    Mr. Shuman. No, sir.
    Mr. Mast. Okay. Do VA locations--again, you have seen one 
VA, you have seen one VA--do VA locations of hospitals have 
locations for employee unions?
    Mr. Shuman. I am not sure, sir.
    Mr. Mast. Do you know if the West Palm Beach VA has a 
location inside of it for an employee union?
    Mr. Shuman. I do not, sir.
    Mr. Mast. It does. I mentioned that my office is about the 
size of that table there, maybe even smaller than that. The 
space for the employee union is probably close to half the size 
of this room, so quite a bit larger, to employ--for VA employee 
union duties.
    I would ask this--and this is just in response to some of 
the things that you said--does impacting the life of one 
veteran make it worth it?
    Mr. Shuman. Indeed.
    Mr. Mast. Absolutely. I would agree with you.
    You did also bring up--saying that some Members of Congress 
that I share this office space with have not taken the same 
amount of time. Would you like to share those numbers, with the 
differences in time?
    Mr. Shuman. Certainly, sir. So we reached out to the other 
three Members of Congress and received some feedback from the 
others. What we found is that your staff and yourself manage 
that office every day--your 1 day a week that you have 
available. And, quite frankly, I think you would do it more if 
you had the ability to.
    The other offices sometimes maintain that office once a 
month compared to the once a week. So that is some of the data 
that we got back from them, which is why we referenced that 
there are some that would not use it to the fullest capacity 
that you have, and I believe you would even use it more.
    To the other point that you raise is that space is 
critical. And I understand what you are saying, advocacy is, 
you know, some would say is more important than a shopping 
space. I think our concern is that we want to make sure this is 
implemented correctly. We don't want to force the VA Secretary 
to have to do it if they don't have the space. You say that if 
you have seen one VA, you have seen them all. I would disagree. 
I would think that many VA facilities are different. Look at 
the Denver VA brand-new today compared to the one in Phoenix, 
Arizona, where I am from. So they are slightly different. I am 
not saying all of them have shopping centers, but I understand 
your argument there.
    Mr. Mast. My statement was actually, ``If you have seen one 
VA, you have seen one VA.''
    Mr. Shuman. Oh, sorry, sir.
    Mr. Mast. Yeah, they are not the same; they are all 
different. I would be perfectly happy to meet with our veterans 
in a boiler room if that is what it took to have appropriate 
advocacy for them. I would meet them wherever it is that they 
want to meet.
    I would like to go to you, Mr. Ramos, for a question as 
well. You spoke about needing some classes for staff, for us as 
Members of Congress, for our staff to understand how to 
appropriately advocate, and the levels at which people are 
supposed to be seen: You know, do you speak to the VA 
Administrator? Do you go and speak to one of the VSOs? What are 
those channels and the order in which you are supposed to do 
them?
    Would you suggest that such a class exist for the staff of 
Members of Congress now? Because we are dealing with all of the 
same issues. The difference is the convenience and the location 
where we are dealing with those issues and how quickly a 
veteran can access us. But we are still dealing with all of the 
exact same conversations that a constituent would want to come 
see us in some other facility. So that being said, would you 
advocate that we have a class just right now, just for our 
staff to address those same things?
    Mr. Ramos. That is a good question. And I believe OCLA has 
a guidebook for it but not a class. So the answer would be yes, 
but more importantly for those working within an installation 
because the concern would be that a veteran goes to a 
representative office and bypasses those. So it is just to 
reinforce that those entities within the VA exist and that they 
should go through that process first.
    Mr. Mast. And that is an appropriate concern, and that is 
something that I would like you to know that my staff is 
educated in that and directs those constituents: These are the 
appropriate channels in which you are supposed to go through in 
order to address this issue.
    And I would just make one other comment as it was brought 
about, about Hatch Act violations. I think the same concern can 
be brought about when you are talking about any congressional 
office anywhere. There is always a risk that some member of 
staff could dive into something political in a location that is 
meant very strictly for official work. That is a problem that 
can exist anywhere. No office anywhere in the country for any 
Member of Congress is barred from that risk, regardless of its 
location. I thank you for the time for answering my questions.
    Mr. Dunn. Thank you, Mr. Mast.
    Mr. Takano, do you wish to be recognized?
    Mr. Takano. Yes.
    Mr. Dunn. You are recognized for 5 minutes.
    Mr. Takano. Yes, Mr. Chairman.
    You know, for Members of the panel, outside of embedding 
congressional offices outside of VA facilities, how can Members 
of Congress improve access to have congressional services they 
offer?
    Mr. Shuman. Well, thank you for the question, Congressman.
    Quite frankly, I think, thinking such as Mr. Mast has 
deployed is a step in the right direction. Trying to find sort 
of target-rich environments for constituents in general, not 
just veteran constituents, is great. You will find a lot of 
Members of Congress host mobile office hours. That is the--that 
is the direction that they should be going, not just having one 
stationary office or two stationary offices; moving around and 
really trying to find the environment where the constituents 
are gathering, or like I said earlier, a target-rich 
environment where, in this particular situation, veterans 
gather at VA, it makes sense.
    Mr. Takano. One of the things that my office engaged in was 
to--I know that congressional offices can obtain information 
about the veterans that they represent in the district. I am 
pretty sure that that is a pretty standard sort of piece of 
information that congressional offices can obtain. And they can 
do mailings--not mailings--but they can do questionnaires via 
email about the services they have, the quality of the services 
that they have at the local VA. Kind of a questionnaire or 
survey. I know that my office did that, and we got an idea of 
what our veteran constituents felt about the local VA service, 
but it also garnered quite a bit of inquiries about 
representation and advocacy that they--it was a way for our 
office to engage with those veterans.
    And if there was anybody who scored the VA health care 
system in a very low manner, we called them up and said: You 
know, what can we do to help you in this sort of situation?
    So I think that is another way in which we can try to 
engage veterans who may not be aware of the services or who are 
engaged with services and aren't quite happy with them. What do 
you think about that?
    Mr. Shuman. Well, sir, again, I think any medium that 
allows a Member of Congress to reach out to their constituents 
is important. One thing from my time working in a district 
office for a Member of Congress is that many constituents are 
not aware that a Member of Congress can even help with these 
services. For the ability to be able to inquire, to sort of 
assist the VA in moving along in rendering a decision on a 
claim, many general citizens are not aware of those services 
that your office can assist with. So I think any way sharing 
that information with your constituents, particularly the 
veteran constituents, is a massive step in the right direction, 
sir.
    Mr. Ramos. I would add that personal interaction, though, 
goes a long way. So, in addition to reaching out 
electronically, I think attending or participating locally 
within events, particularly where veteran population is.
    Mr. Takano. Oh, I would agree with you. I think a 
combination of an all-hands-on-deck approach to try and reach 
out. Veteran advocacy is one of the--unfortunately, one of the 
things that congressional offices have to do. And I say 
``unfortunate'' because, you know, if we had a more well-
functioning VA, it would imply that congressional offices 
wouldn't have to do so much advocacy.
    I just want to point out, it is true that at least one-
third--at least one-third of people employed at the VA are 
veterans themselves. Is that a number that you are familiar 
with?
    Mr. Shuman. I don't know what the exact number is, but I 
know there is quite a few employees that--
    Mr. Takano. My recollection is at least one-third. And at 
least, you know, one-third of the workforce, frontline, 
nonmanagerial employees are members of an employee union. And I 
want to differ somewhat. I mean, I do think that what my 
colleague from Florida, in casting aspersions on union 
employees, a lot of what the union does is defend veteran 
employees who need due process.
    And we certainly--I certainly believe that veterans, of all 
people, who fought for our country, also fought for important 
workplace employment rights, and they deserve it just as many 
as any other employee. And to the extent that there is office 
space available for them, I think that it is appropriate.
    Mr. Dunn. Thank you very much, Mr. Takano.
    Any further questions from up here?
    All right. Thank you all. Thank you all for participating 
in this hearing. If there are no further questions, the second 
panel is now excused.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and include extraneous 
material.
    And, without objection, that is so ordered.
    This hearing is now adjourned.

    [Whereupon, at 10:47 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

               Prepared Statement of Honorable Brian Mast
    Chairman Roe and Ranking Member Walz, I appreciate the opportunity 
to testify before the House Veterans' Affairs Subcommittee on Health on 
legislation I introduced in March 2018- HR 5413, the Improving Veterans 
Access to Congressional Services Act.
    My commitment every day is to prioritize fixing the issues our 
veterans face, no matter my station. However, I firmly believe that in 
order to fix an issue, we must be present to understand the problem. 
That is why I still do, and always will, get my healthcare from the 
Department of Veterans Affairs. I experience the issues and problems 
first hand, but I also get the opportunity to see what is working well.
    That is also why, as many of you may know, we opened the first-ever 
congressional office inside the West Palm Beach VA Medical Center last 
year. By opening up this office, my staff and I get to see, week in and 
week out, the daily operations of our local VA. We interact with our 
veterans daily and receive positive and negative feedback on the 
operations of the facility in real-time. When common threads or issues 
surface, I address it with the hospital administration and we work 
collaboratively to resolve them. Additionally, when veterans have a 
negative personal experience at our VA facility, they know they can be 
heard at the highest possible level - immediately.
    To provide a bit of background and context, our office in the VA 
opened for the first time on December 18, 2017. I share this office 
with three other members of the Florida Congressional Delegation: 
Representatives Alcee Hastings, Lois Frankel, and Ted Deutch. I try to 
personally be in the office on Mondays before I fly back here to 
Washington. In just 9 short months, my office has held over 400 
meetings there with our veterans and their families and caregivers and 
opened nearly 200 additional cases. This office has allowed me to 
expedite the assistance I provide our veterans and improve the overall 
quality of service my office delivers.
    I truly believe that every Member of Congress should have the 
opportunity to open an office at their local VA. The more present 
Members of Congress are, the better quality of service our veterans 
will receive. Since I opened our office in the VA, I've been approached 
by several other members looking to replicate our efforts. It took me 
eight months of administrative processing from the date Secretary 
Shulkin gave me is commitment until the office actually opened. I was 
happy to be the first through this door and lessons learned about the 
process of opening a Congressional VA office should be simplified and 
institutionalized.
    That is why I introduced the Improving Veterans Access to 
Congressional Services Act, to pave the way for our colleagues to open 
VA offices of their own. Together, we can improve our veterans' access 
to us and make a high level of service a reality across the country. 
This legislation requires the Secretary of Veterans Affairs to permit 
the use of VA facilities by Members of Congress for the purposes of 
meeting with their veteran constituents. Additionally, H.R.5413 
requires the Secretary to establish standard operating procedures to 
facilitate and expedite requests for space within a VA facility by 
Members of Congress.
    By building off the process established by the Veterans 
Administration when I opened my office, we can improve our veterans' 
access to Congressional services, as well as their overall care. 
Chairman Roe, Ranking Member Walz and members of the Committee, I 
appreciate the opportunity to testify on my legislation.

                                 <F-dash>
           Prepared Statement of Honorable Elizabeth H. Esty
    Chairman Dunn, Ranking Member Brownley, and my fellow members of 
the House Committee on Veterans' Affairs, thank you for the opportunity 
to testify today about my bill, H.R. 6418, the VA Website Accessibility 
Act of 2018.
    As the Ranking Member of the House Committee on Veterans' Affairs 
Disability Assistance and Memorial Affairs Subcommittee, I know all too 
well how many veterans must live with the wounds of war.
    According to the Blinded Veterans Association, there are an 
estimated over 130,000 legally blinded veterans in the United States, 
and another 1.5 million with low-vision. These veterans require and 
deserve the same services and support as other veterans with 
disabilities. The needs and deservingness of disabled veterans is 
reflected in law - Section 508 requires the VA Website to be accessible 
to people with disabilities. However, blind veterans currently face 
undue challenges accessing VA websites and mobile applications which 
are often the gateway to VA services and benefits. Navigating the VA's 
often complicated bureaucracy for the detailed information necessary to 
apply for VA benefits should not be doubly difficult for our visually 
impaired veterans. While assistance from a friend or a loved one can be 
invaluable, not every blind veteran has somebody available at all times 
to help them access the critical information they need, nor should they 
have to rely on someone else to help them gain access. Reader apps or 
other devices provide helpful support but I have heard from blind 
veterans who say that these apps do not always work on VA websites as 
required by law.
    Perhaps one of the most alarming instances of inadequate access to 
VA mobile applications was identified earlier this year when the VA 
updated the Veterans' Crisis Line mobile application, but failed to 
verify that the update was Section 508 compliant. Visually impaired 
veterans were unable to access this critical mobile resource. 
Thankfully, quick action by the Blinded Veterans Association, our staff 
and calls to the VA corrected this unacceptable error. I know that 
everyone on the dais shares my opinion that we cannot let things like 
this happen again.
    That is why I introduced the VA Website Accessibility Act which 
would require a study to determine the accessibility of VA websites to 
individuals with disabilities. It is incredibly important that this 
Congress and the VA continue to provide all our veterans, including 
those with visual impairments, with full access to all the resources 
and information they need to be successful.
    I understand that federal law already requires VA's websites to be 
accessible to veterans with disabilities. But reports from visually 
impaired veterans and the VSO community demonstrate that in practice, 
this is not always the case. I am sure that this is often not 
intentional, but we must take steps to ensure that total compliance to 
508 regulations is the standard 100 percent of the time. Good 
intentions are not enough. We owe it to all veterans - including the 
blind and visually-impaired--to ensure that they are able to access the 
benefits that they have earned through service to our nation.
    I thank the Committee for inviting me to testify today. I hope to 
see this bill move quickly through this committee and on to the House 
floor.
    Thank you.

                                 <F-dash>
                 Prepared Statement of Melanie Brunson
INTRODUCTION

    Chairman Dunn, Ranking Member Brownley, and Members of the Health 
Subcommittee, THANK YOU, on behalf of the Blinded Veterans Association 
(BVA), its national officers and members nationwide, for this 
opportunity to offer our views on HR6418 and HR5413. BVA is the only 
congressionally chartered Veterans Service Organization (VSO) 
exclusively dedicated to serving the needs of our Nation's blinded 
veterans and their families.
    As such, we thank Rep. Esty, and Reps. Mast and Higgins for their 
interest in meeting the needs of our nation's veterans, as evidenced by 
the provisions in these bills. We will offer some comments on each of 
these pieces of legislation, beginning with HR6418 below.

I. HR6418, The VA Website Accessibility Act of 2018

    By directing the Secretary of the Department of Veterans Affairs to 
examine and compile a report on the accessibility of VA's websites, 
HR6418 provides a welcome opportunity to finally raise the profile of 
some of the VA's longest standing barriers to its effective 
communication with people who have visual disabilities, whether they 
are employees of the VA, or veterans seeking to utilize the benefits 
and services administered by the Department. We believe this 
legislation gives the Secretary a concrete means of launching an 
initiative that could result in addressing IT and website accessibility 
issues in a meaningful and long-term manner.
    Section 508 of the Rehabilitation Act requires federal agencies to 
ensure that all electronic and information technologies developed, 
procured, maintained, or used in the federal environment provide equal 
access for people with disabilities, whether they are federal employees 
or members of the public. Section 508 implementing regulations, 
together with web accessibility guidelines (WCAG) compiled periodically 
over the years by the Worldwide Web Accessibility Consortium, have 
sought to put agencies of the United States government, including the 
VA, in a position to lead the way and make websites accessible to all 
users, regardless of disability. Unfortunately, our experience 
indicates that while the VA has made significant progress toward 
consistent compliance with these accessibility guidelines, the 
department has a long way to go to be a leader in this area. BVA's 
national officers and staff meet regularly with staff of the Section 
508 Compliance Office and they are generally responsive to the concerns 
we raise. They address the accessibility barriers we bring to their 
attention promptly. However, all too often, those same barriers, are 
erected again a few months later when websites are updated, or a new 
website is rolled out. The scenario that is most disturbing is when 
accessibility features are put in place, only to be broken the next 
time the site is updated.
    One example of this was cited in BVA's testimony during the joint 
House and Senate Veterans' Affairs Committee hearing last March. It 
involved use of the chat feature on the VA Crisis Line's website. When 
the website launched, that feature could not be accessed by anyone 
using screen reading software commonly used by people who are blind to 
read websites. The VA was notified of this issue and eventually a 
software patch was developed to allow screen readers to access the chat 
feature. However, several months later, a different problem arose, 
which once again, made it difficult to access this feature. In order to 
invoke it, one had to get to it from vets.gov, rather than through the 
Crisis Line's website. We once again contacted VA, and once again, I am 
happy to report, the problem did get resolved. However, the sad 
situation is that twice, during a period of less than a year, if any 
visually impaired veteran was in crisis and could have benefited from 
that tool, it was off limits to them. This seems to defeat the purpose 
for which the feature was launched in the first place.
    Another example has created significant hardships for BVA's own 
veteran service officers who have visual impairments. It concerns the 
Veterans Benefits Administration's (BVA's)VSO training course, TRIP. 
After repeated requests by BVA, beginning two years ago, asking VA 
staff to insure this course would be accessible upon its release, the 
course was released early this year by BVA posted on a website that is 
incompatible with screen reading software utilized by blind persons. 
Furthermore, barriers to access via screen readers that were 
inadvertently built into the website's design cannot be readily removed 
without requiring a major, expensive, overhaul of the entire design.
    Additionally, VA frequently circulates, both through its websites 
and in e-mail communications, files that are created in inaccessible 
formats. We receive pdf documents on a regular basis from various 
offices within the VA that are not readable by screen readers.
    The question that arises then, is whether the Congressional 
directive to the VA Secretary that is proposed in HR6418 will help to 
improve the situation, as described above. Our belief is that it has 
the potential to do so. The trouble with a report on website 
accessibility is that websites are not static. A report can only 
describe their status at a particular point in time, and that status 
can change even before the ink dries on the report, as website 
administrators add tools, redesign features, or update content. Any one 
of these alterations can render aspects of that site inaccessible, 
unless the industry standards for website accessibility are followed. 
In each of the examples we noted earlier, the accessibility barriers 
were avoidable. Industry standards for making each of the features we 
discussed accessible were clear and widely available to website 
developers. Therefore, while we support this legislation as a positive 
step toward more consistent accessible compliance with accessibility 
requirements on the part of the VA, we think some additional direction 
would increase its effectiveness as a means of addressing VA's 
compliance issues. First, identifying VA's ``inaccessible websites'' in 
the report is not enough. The report should also specify what makes 
each item inaccessible and what is required to fix it. This would 
inform the plan the legislation directs the secretary to develop. 
Second, this plan should not only address current accessibility 
shortfalls, but should also set forth practices and policies the OIT 
will implement to insure that VA follows Section 508 compliance 
guidelines more consistently in the future.
    To be effective as a means of addressing crucial accessibility 
issues within the VA, the scope of this report should also be broadened 
beyond VA's websites, as there are additional concerns of Section 508 
compliance that the VA needs to deal with sooner rather than later, as 
part of its IT modernization effort. Some areas of ongoing concern 
include:

    <bullet>  Continued reliance on inaccessible kiosks at VA Medical 
Centers, the use of which is required to check in for scheduled 
appointments.
    <bullet>  Inaccessible Telehealth tools, namely the Health Buddy 
home monitoring station.
    <bullet>  VBA web pages containing eBenefits information that are 
inaccessible to blind people who use screen readers.
    <bullet>  The continuing accessibility barriers faced by VA 
employees with visual disabilities who are forced to use legacy systems 
that are largely incompatible with adaptive software in order to do 
their jobs.
    <bullet>  Inadequate staffing by the VA to ensure its capacity to 
address internal and external accessibility issues.
    <bullet>  Lack of an enforcement mechanism or other means of 
addressing compliance issues, so that if equipment, hardware, software, 
or a website is found to be noncompliant with accessibility standards, 
someone follows through and addresses the issues that are identified, 
and thereby fixes the accessibility problem.

    In summary, greater priority must be given to insuring that VA's IT 
infrastructure, including websites, apps, and IT equipment procured by 
the department for use by employees or members of the public who may 
have visual impairments, is accessible at the time of implementation or 
rollout. The current practice of relying on later ``fixes'' is neither 
cost-effective nor acceptable. If approved by Congress, this 
legislation could give Secretary Wilkie the impetus to lead the VA's 
effort to insure compliance with accessibility guidelines is central to 
all of the department's IT policies and practices, and not just an add-
on once the important things are completed. This is especially 
important as VA rolls out its new initiative in collaboration with 
Cerner. The veteran-facing aspects of the electronic medical record 
this collaboration produces must be accessible to those veterans who 
have visual impairments or other print reading disabilities, just as it 
is for nondisabled veterans. If this does not occur, the system will 
once again fail to serve a significant portion of our nation's 
veterans.
    Before concluding our discussion of this bill, there is one final 
question we want to raise. What will Congress do with the report called 
for in this legislation? It is our hope that the members of this 
subcommittee, and the House and Senate Veterans' Affairs Committees, 
will exercise greater oversight of VA's compliance with accessibility 
guidelines. While the report called for here can highlight what needs 
to be done, it doesn't make its accomplishment a foregone conclusion. 
We urge members of this committee to hold VA accountable for addressing 
the barriers and implementing the plan set forth in any report Congress 
receives on the accessibility of VA's websites to people with 
disabilities.

II. HR5413, Improving Veterans Access to Congressional Services Act of 
    2018

    Like other VSOs, BVA has several staff members, as well as a number 
of members across the country, who volunteer time each week to assist 
veterans with claims for VA benefits. We know this is an important 
service, and we are pleased that members of Congress have constituent 
services staff who are dedicated to helping veterans with such claims. 
Reaching those veterans who need help can be a challenge for all of us. 
While one reasonable way to address that challenge could be to open 
more claims offices within VA medical centers, where veterans 
congregate, the proposal described in HR5413 raises some questions for 
us. Chief among these is the space limitations at many VA facilities. 
BVA's claims staff have experienced these limitations numerous times 
over the years. It is not uncommon for VA directors to run out of space 
for the offices of the medical personnel they hire to try to meet the 
needs of their increasing patient population. Given the shortage of 
space for their medical staff, it may not even be possible to find 
space for a claims representative at some facilities, regardless of how 
much value there might be in doing so. A related question arises with 
regard to VA medical centers whose patients live in several 
Congressional districts. We understand that the authors of this bill 
work well with other members to share VA office space. But we can't 
help but question whether the all-too-common absence of bipartisan 
working relationships these days could make this difficult in some 
districts. How many office spaces would, or should, be obligated for 
use by Congressional staffers in such cases? While we support any 
effort to reach veterans who are in need of assistance with their 
claims, we have not taken a position on the particular proposal set 
forth in HR5413, because of the logistical questions listed here. Even 
so, we appreciate the intent of the bill's authors and we would welcome 
further clarification on how these issues might be addressed in order 
to minimize the burden on local VAs and maximize the benefits veterans 
could gain from having access to additional resources.
    Our thanks, once again, to the members of the Health Subcommittee, 
for the opportunity to speak with you about the above legislation. If 
you would like any further information, please feel free to contact 
Melanie Brunson, Director of Public Affairs, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b0ddd2c2c5dec3dfdef0d2c6d19edfc2d79e">[email&#160;protected]</a> We 
look forward to answering any questions you may have.

                                 <F-dash>
                Prepared Statement of Matthew J. Shuman
    Chairman Dunn, Ranking Member Brownley, and distinguished members 
of this critical subcommittee, on behalf of National Commander Brett P. 
Reistad and the 2 million members of The American Legion, the country's 
largest patriotic wartime veterans service organization, we thank you 
for the opportunity to testify on the H.R. 5413, the Improving Veterans 
Access to Congressional Services Act of 2018 & H.R. 6418, the VA 
Website Accessibility Act of 2018.

H.R. 5413

    To direct the Secretary of Veterans Affairs to permit Members of 
Congress to use facilities of the Department of Veterans Affairs for 
the purposes of meeting with constituents, and for other purposes.
    In 2017, Representative Brian Mast, a special-forces combat veteran 
and Veterans Health Administration patient, opened the first-ever 
congressional office at the West Palm Beach Veterans Affairs Medical 
Center (VAMC). The purpose of this office is to meet with constituents, 
primarily veteran constituents receiving healthcare at the Department 
of Veterans Affairs (VA). Working with then VA Secretary, Dr. David 
Shulkin, an office was dedicated for congressional use in late 2017. 
\1\ The West Palm Beach VAMC services four different congressional 
districts, and VA supplied the office space, but required the space be 
shared between the four Members of Congress who represent the area.
---------------------------------------------------------------------------
    \1\ https://cbs12.com/news/local/rep-brian-mast-to-open-new-office-
inside-va-medical-center-in-west-palm-beach
---------------------------------------------------------------------------
    The Secretary of the Department of Veterans Affairs has the 
authority to provide office space for Members of Congress. This is the 
same authority used to open the office in West Palm Beach. Congressman 
Mast has shared the process for obtaining this authorization is arduous 
and time-consuming. It took him more than a year to open the West Palm 
Beach location.
    H.R. 5413, the Improving Veterans Access to Congressional Services 
Act of 2018, will direct the Secretary of VA to permit Members of 
Congress to use VA facilities to meet with constituents. This bill will 
afford Members of Congress the ability to have physical offices at VA 
Medical Centers, allowing them to meet with and assist their veteran 
constituents with VA claims, earned benefits, and to receive comments 
about care received at their local VAMC. The bill also requires VA to 
develop regulations regarding the use of agency office space by Members 
of Congress, mandating that space is made available during normal 
business hours and in a location that is easily accessible to the 
Member's constituents.
    The American Legion, when invited to testify before this committee, 
engaged Representative Mast's congressional office, as well as the 
other Members sharing the space in the West Palm Beach VAMC, to learn 
more about the creation and day-to-day operations. Congressman Mast's 
District Director, who manages their weekly office hours, explained the 
agreement to provide office space in the facility shared among the four 
Members of Congress who represent the area, is on a rotating basis. 
Each of the four members offices is assigned a day of the week to staff 
the office from 10:00 am to 2:00 pm. The American Legion agrees 
expanding access to services, especially congressional services is a 
good thing, however, our experience also makes us wary of possible 
negative unintended consequences.
    The use of this potentially valuable resource appears to vary 
greatly among Members. Whereas Congressman Mast often personally 
maintains a presence in the location and his office has had great 
success in engaging the veteran community, other members sharing the 
space do not seem to have the same level of commitment or resources to 
fulfill such a presence. For example, in Congressman Mast's May 16th, 
2018, testimony before the full House Veterans' Affairs Committee, he 
expressed that his VA office, in only five months of existence, had 
conducted more than 250 meetings with veterans, their families and 
caregivers, and has opened more than 110 individual constituent cases 
to assist veterans. \2\ In contrast, other offices indicate the office 
space is used as little as once a month and provides minimal value. The 
American Legion is not only concerned that VA will be required to 
provide space to congressional members who may further limit space 
currently available for necessary healthcare services, but that this 
valuable space may be underutilized.
---------------------------------------------------------------------------
    \2\ https://mast.house.gov/2018/5/mast-testifies-before-va-
committee-on-his-legislation-encouraging-congressional-offices-at-va-
facilities
---------------------------------------------------------------------------
    The American Legion is adamant in ensuring both VA and our 
representative government are accessible to all veterans. We are also 
concerned an office of this type will be little more than a ``Complaint 
Department,'' where veterans will express only issues and concerns 
about VA care, services, and VA employees.
    The American Legion, in order to support this bill, calls on this 
committee to augment the Improving Veterans Access to Congressional 
Services Act of 2018, to create a pilot program with quantifiable 
criteria that will yield empirical data to show the potential efficacy 
of this legislation to conclusively determine the value to veterans.
    The American Legion applauds and appreciates the intentions, 
efforts, and leadership of Congressman Mast, particularly as a fellow 
veteran. His effort, which we can all learn from, highlights the desire 
of a Member of Congress who understands the value of firsthand 
engagement with veteran stakeholders in the VA healthcare system. The 
American Legion, the largest representative of those stakeholders, will 
continue researching and working with this committee, Representative 
Mast's congressional office, and our membership of wartime veterans to 
determine our position and course of action, to best serve those who 
have selflessly raised their right hands and taken the oath to protect 
this great nation.

    The American Legion supports H.R. 5413 with recommended amendments.

H.R. 6418

    To direct the Secretary of Veterans Affairs to conduct a study 
regarding the accessibility of websites of the Department of Veterans 
Affairs to individuals with disabilities.
    20 USC 794d Sec.  508 (Section 508), of the Rehabilitation Act 
establishes requirements for electronic and information technology 
developed, maintained, procured, or used by the federal government. 
Section 508 requires federal electronic and information technology to 
be accessible to people with disabilities, including employees, and 
members of the public. An accessible information technology system is 
one that is operated in a variety of ways and does not rely on a single 
sense or user ability.
    The VA Website Accessibility Act of 2018, is not proposing any 
changes to Section 508. H.R. 6418 requires VA to examine all websites 
(including attached files and web-based applications) of VA to 
determine whether such websites are accessible to individuals with 
disabilities in accordance with Section 508. Further, H.R. 6418 
requires VA to compile a complete list of non-compliant websites and 
submit a plan to Congress to make these websites compliant with the 
requirements of Section 508.
    The American Legion is thankful and applauds the leadership of 
Representative Esty for creating this legislation, which, in time, will 
assist VA in becoming more user friendly to veterans in need.

The American Legion supports H.R. 6418.

Conclusion

    The American Legion thanks this committee for the opportunity to 
elucidate the position of the nearly 2 million veteran members of this 
organization. For additional information regarding this testimony, 
please contact the Senior Legislative Associate, Mr. Larry Lohmann, at 
The American Legion's Legislative Division at (202) 861-2700 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="600c0c0f080d010e0e200c0507090f0e4e0f12074e">[email&#160;protected]</a>

                                 <F-dash>
       Prepared Statement of WOUNDED WARRIOR PROJECT - Jose Ramos
    Chairman Dunn, Ranking Member Brownley, and distinguished Members 
of the Subcommittee on Health, on behalf of Wounded Warrior Project, we 
thank you for the opportunity to testify on legislation before the 
House Committee on Veterans' Affairs.
    Wounded Warrior Project is transforming the way America's injured 
veterans are empowered, employed, and engaged in our communities. Since 
our inception in 2003, Wounded Warrior Project has grown from a small 
group of friends and volunteers delivering backpacks filled with 
comfort items to the bedside of wounded warriors here in our nation's 
capital, to an organization of nearly 700 employees in 29 locations 
across the country and overseas delivering over a dozen direct-service 
programs to warriors and families in need. Through our direct-service 
programs, we connect these individuals to their communities and with 
one another through our peer-to-peer programming. We serve them by 
providing mental health support and clinical treatment, physical health 
and wellness programs, job placement services, and benefits claims 
help; and we empower them to succeed and live life on their own terms. 
We are constantly striving to be as effective and efficient as possible 
and are in daily communication with the warriors and caregivers we 
serve to ensure we are constantly adapting to their unique challenges 
and needs.

H.R. 5413: Improving Access to Congressional Services Act of 2018

    To direct the Secretary of Veterans Affairs to permit Members of 
Congress to use facilities of the Department of Veterans Affairs for 
the purposes of meeting with constituents, and for other purposes.
    Each year, thousands of veterans turn to Members of Congress with a 
range of requests that span the spectrum of complexity. The Members and 
their staff act as the ombudsmen between their constituent, in this 
case veterans, and the Department of Veterans Affairs (VA). 
Congressional casework not only helps individual congressional offices 
assist veterans with critical needs, but it also provides Members and 
their staff with a better understanding of government programming, how 
policies affect the veteran population, and whether there is a 
necessity for congressional oversight or legislative action.
    Throughout our 15-year history, WWP has been at the bedside of some 
of the nation's most critically injured warriors. Through two programs 
in particular - our Independence Program and the work of our Veterans 
Disability Benefits Services Team - WWP assists service members and 
veterans living with moderate to severe traumatic brain injuries, 
spinal cord injuries, and other neurological conditions that impact 
independence. We also have partnerships with specialized neurological 
case management teams at Neuro Community Care and Neuro Rehab 
Management that provide individualized services to meet the needs of 
veterans and their families. Warriors that use these programs present 
with complex needs and the challenges they face are reflective of those 
seen in the greater veteran's community. This year, the Independence 
Program will deliver more than 200,000 hours of care to the nearly 700 
warriors enrolled.
    When serving these warriors, WWP has often found itself advocating 
for the critically injured and their caregivers, while communicating 
with the VA and congressional staff. WWP believes this process can be 
improved by co-locating a congressional representative's district staff 
member within a VA Medical Center (VAMC). Doing so would alleviate the 
need for multiple trips to different locations and provide a more 
holistic approach to address the needs of the most critically injured. 
Simply put, this could create a one-stop-shop for advocacy and medical 
treatment for the most seriously wounded among our veteran population.
    A prototype already exists and appears to be working. The first-
ever VAMC-based congressional office was opened in January 2018 at the 
West Palm Beach VAMC. This office is shared by four Members of Congress 
and occupied by congressional staff on a rotational basis. Through 
discussions with some of the participating warriors we serve, it is 
apparent that there is significant value provided to constituents - in 
this case, both veterans and their families. Additionally, relations 
between the congressional offices and VA has allowed for the resolution 
of some issues, instead of submitting a congressional inquiry which 
often takes time to respond. The shared space agreement between the 
congressional offices and VA was written to mitigate issues around 
prohibited political activities, the use of VA facilities for public 
fora, and usurping the existing pathways for veterans to seek concern 
resolution through Service Level Advocates and Medical Center Patient 
Advocates.
    Although it has been demonstrated that a legislative solution is 
not required to establish a congressional office within a VAMC, the 
absence of such legislative authority allows the VA to deny space to 
those who seek it. We suggest a climate survey be conducted to assess 
the needs and see how each stakeholder feels about the prototype 
agreement.
    The VA's Office of Congressional and Legislative Affairs (OCLA) is 
the focal point for VA management and coordination of all matters 
involving Congress. Assistance to Members of Congress and their staff 
is available through offices located at VA's Central Office and on 
Capitol Hill. Within VA OCLA, congressional interaction is further 
separated between Outreach and Oversight Divisions. The Outreach 
Division is responsible for receiving and coordinating constituent 
related casework and is broken down into seven geographical regions. On 
average, the Outreach Division receives approximately 40,000 cases per 
year. Of note, approximately 25 percent are cases received directly 
from veterans, including some who walk into Capitol Hill offices 
located in the Rayburn House Office Building and Russell Senate Office 
Building.
    We believe that co-locating a congressional office within a VAMC 
will lessen the burden on an already overtasked VA Outreach team and 
facilitate the resolution of some issues locally with greater 
transparency and efficiency. It would also provide congressional 
offices and Members of Congress the opportunity to interact more often 
with the veteran population in their communities and to better 
understand the challenges veterans may face and observe the challenges 
and successes at their local VAMC.
    Although we support H.R. 5413, WWP would like to caution Congress 
on a few aspects regarding this legislation. It is our hope that these 
congressional offices are used to conduct constituent outreach, 
dissemination of information pertinent to the veteran population, and 
above all, allow Congress to learn from the veteran community through 
physical interaction at a common veteran focal point. There is some 
concern with the potential for misusing theses offices as an 
``oversight'' to local VA facilities instead of allowing the VA's 
Service Level Advocates and Medical Center Patient Advocates from 
executing their mission. Clear guidance should be considered when 
determining what actions are acceptable at these locations. Therefore, 
we suggest VA develop an ``Introduction to Veteran Affairs'' class, 
outline a clear ``VA advocacy chain of procedures,'' and require any 
individual working at the VA based offices to not only attend these 
classes but also agree to properly direct veterans who ask for 
assistance to the appropriate Service Level Advocates or Medical Center 
Patient Advocates VA. The intent is to ensure that congressional staff 
working at the local VAMC do not bypass already available resources 
because they are unaware of how the VA operates. Lastly, Congress 
should be extremely sensitive to the perception of using veterans for 
political purposes, and therefore strongly support the closing of the 
VAMC congressional offices during campaign season as outlined in the 
current shared space agreement being utilized at the West Palm Beach 
VAMC.
    For these reasons, Wounded Warrior Project fully supports H.R. 
5413, the Improving Access to Congressional Services Act of 2018.

H.R. 6418: VA Website Accessibility Act of 2018

    To direct the Secretary of Veterans Affairs to conduct a study 
regarding the accessibility of websites of the Department of Veteran 
Affairs to individuals with disabilities.
    Wounded Warrior Project's mission to honor and empower wounded 
warriors drives us to foster the most successful, well-adjusted 
generation of injured veterans in our nation's history. The warriors, 
caregivers, and family members we serve are at the center of every 
decision we make.
    While the past several years have seen an increased focus on the 
mental health needs of post-9/11 veterans, WWP remains vigilant in 
addressing the needs of those with severe physical and cognitive 
injuries. According to the Department of Defense (DoD)-VA Extremity and 
Amputation Center of Excellence, as of June 2018, there have been a 
total of 1,719 OEF/OIF/OND/OIR/OFS amputee patients treated in all 
Military Treatment Facilities. A large portion of those patients was 
treated following high-impact or blast-related injuries. Additionally, 
the 2017 Wounded Warrior Survey - distributed annually by WWP to 
warriors registered with our organization - illustrates that 40.9 
percent of the 34,822 warriors who completed the survey self-reported 
to have a traumatic brain injury (TBI). This population includes those 
with severe TBI who experience significant cognitive issues.
    According to the DoD's Vision Center of Excellence, eye/head trauma 
or exposure to a blast can result in immediate and/or longer-term 
vision loss and visual dysfunction that can be difficult to initially 
detect, making those affected with TBIs more prone to vision problems 
in the future \1\. Research also notes that among the 41,469 OEF/OIF/
OND veterans diagnosed with eye conditions, more than 75 percent of all 
TBI patients experienced short- or long-term visual dysfunction, 
including double vision, sensitivity to light, and inability to read 
print, among other cognitive problems \2\. Furthermore, according to 
DoD military eye trauma statistics, from 2000 through 2010, there were 
186,555 eye injuries worldwide in military medical facilities \3\. The 
most significant factors leading to hospitalization were ordnance 
handling (16.9 percent), enemy action (13.1 percent), and assaults and 
fighting (11.9 percent) \4\.
---------------------------------------------------------------------------
    \1\ DoD Vision Center of Excellence. Vision Problems Associated 
with TBI.
    \2\ DoD Armed Forces Health Surveillance Center, Medical 
Surveillance Monthly Report (MSMR), vol. 18, no. 5, Eye Injuries, 
Active Component, U.S. Armed Forces 2000-2010, May 2011, 2-7.
    \3\ Ibid at 2-7.
    \4\ Hilber D, Mitchener TA, Stout J, Hatch B, Canham-Chervak M. Eye 
injury surveillance in the U.S. Department of Defense, 1996-2005. Am J 
Prev Med. 2010;38(1S): S78-S85.
---------------------------------------------------------------------------
    Section 508 of the Rehabilitation Act (29 U.S.C. Sec.  794d) 
requires federal agencies to ensure that all electronic and information 
technologies developed, procured, maintained, or used by the Federal 
Government provide equal access for people with disabilities, whether 
they are federal employees or members of the public. According to a 
2012 Department of Justice report, there are still major challenges 
throughout the government, including at VA, with the implementation and 
management of Section 508 compliance. Even though the Attorney General 
is required to submit reports to the President and Congress on the 
state of federal agencies' compliance with Section 508, WWP was unable 
to find a more recent report. This highlights the necessity for 
additional congressional oversight.
    According to VA's 2016 American Community Survey, Profile of 
Veterans: Internet Use Deep Dive, most households in which a veteran 
resides have internet access and use/own a computer or smartphone 
regardless of gender, age, economic status or educational level \5\. 
This means that the likelihood of a veteran or a Service member with a 
physical or cognitive disability relying on or utilizing an electronic 
or information technology web-based system to seek their care or 
communicate with VA is extremely likely. As VA introduces new 
technologies or modifies old systems, it must recognize the potential 
of inadvertently removing accessibility features that were once in 
place. The VA must ensure that website developers follow industry-
standard accessibility guidelines to ensure compatibility with screen 
reading software utilized by individuals who are visually impaired. 
Additionally, as VA executes the implementation of the electronic 
health record management system, which will have a robust external 
facing platform, it must do so with thoughtful consideration of end 
users who may have visual or cognitive deficiencies.
---------------------------------------------------------------------------
    \5\ U.S. Census Bureau, American Community Survey PUMS, 2016 
Prepared by the National Center for Veterans Analysis and Statistics.
---------------------------------------------------------------------------
    Wounded Warrior Project was pleased to learn that the Cerner 
patient portal currently being developed is being rewritten and will be 
Section 508 compliant. This will be the portal a veteran uses to access 
their medical records and the portal used for the initial operating 
capacity (IOC) site when they go live. One thing to be mindful of 
regarding the Cerner application programming interface (API) framework; 
mobile apps could be developed by several third parties, including VA, 
so additional oversight may be needed to ensure Section 508 compliance 
by non-Cerner developers.
    For all other administrative or clinical-facing workflows and 
solutions, Cerner is not fully compliant because much of the code was 
developed prior to the availability of requirements. It is our 
understanding that Cerner is working closely with VA on completing a 
compliance roadmap.
    For these reasons, WWP supports the intent of H.R. 6418, the VA 
Website Accessibility Act of 2018 with additional recommendations:
    Prior to passing H.R 6418, WWP recommends Congress receive a brief 
from the VA CIO, the Department of Justice Civil Rights Division 
responsible for obtaining information on Section 508 compliance, and 
the Federal CIO Council Accessibility Committee on the status of 
ongoing efforts to bring VA IT systems in compliance with Section 508. 
Any report produced should also include a strategic plan with stated 
timelines for fixing its inaccessible websites to make them accessible 
and usable by people with disabilities. Lastly, Congress should 
institute annual briefs to continue monitoring progress made to include 
electronic health record modernization efforts.

Conclusion

    Wounded Warrior Project thanks the Subcommittee on Health, its 
distinguished Members, and all who have contributed to the policy 
discussions surrounding the bills under consideration at today's 
hearing. We share a sacred obligation to serve our nation's veterans, 
and WWP appreciates the Subcommittee's effort to identify and address 
the issues that challenge our ability to carry out that obligation as 
effectively as possible.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
